Department of Health and Human Services Office of Inspector General Washington, D C 202 01




April 12, 2012


TO:                                                                                          Peter Budetti
                                                                                             Deputy Administrator and Director
                                                                                             Center for Program Integrity
                                                                                             Centers for Medicare & Medicaid Services

                                                                                             Deborah Taylor
                                                                                             Director and Chief Financial Officer
                                                                                             Office of Financial Management
                                                                                             Centers for Medicare & Medicaid Services

FROM:                                                                                        /Brian P. Ritchie/
                                                                                             Assistant Inspector General for the
                                                                                               Centers for Medicare & Medicaid Audits

SUBJECT:                                                                                     Medicare Compliance Review of Bay Medical Center for Calendar Years 2009
                                                                                             and 2010 (A-04-11-08006) and Medicare Compliance Review of Kent County
                                                                                             Hospital for Calendar Years 2009 and 2010 (A-01-11-00537)


Attached, for your information are advance copies of two of our final reports for hospital
compliance reviews. We will issue these reports to Bay Medical Center and Kent County
Hospital within 5 business days.

These reports are part of a series of the Office of Inspector General’s hospital compliance
initiative, designed to review multiple issues concurrently at individual hospitals. These reviews
of Medicare payments to hospitals examine selected claims for inpatient and outpatient services.

If you have any questions or comments about these reports, please do not hesitate to contact me
at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov, or your staff may contact the
respective Regional Inspectors General for Audit Services:

Bay Medical Center
Lori S. Pilcher, Regional Inspector General for Audit Services, Region IV
(404) 562-7750, email – Lori.Pilcher@oig.hhs.gov
Page 2 – Peter Budetti and Deborah Taylor

Kent County Hospital
Michael J. Armstrong, Regional Inspector General for Audit Services, Region I
(617) 565-2684, email – Michael.Armstrong@oig.hhs.gov

Attachment

cc:    Daniel Converse
       Office of Strategic Operations and Regulatory Affairs,
       Centers for Medicare & Medicaid Services
                                                             O FFICE OF A UDIT S ERVICES , R EGION IV
                                                              61 F ORSYTH S TREET, SW, S UITE 3T41
                                                                               A TLANTA , GA 30303
April 16, 2012

Report Number: A-04-11-08006

Mr. Steven M. Johnson
Chief Executive Officer
Bay Medical Center
615 North Bonita Avenue
Panama City, FL 32401

Dear Mr. Johnson:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of Bay Medical Center for
Calendar Years 2009 and 2010. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Truman Mayfield, Audit Manager, at (850) 942-8900, extension 22, or through email at
Truman.Mayfield@oig.hhs.gov. Please refer to report number A-04-11-08006 in all
correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Steven M. Johnson


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW OF BAY
MEDICAL CENTER FOR CALENDAR YEARS
          2009 AND 2010




                         Daniel R. Levinson
                          Inspector General

                             April 2012
                           A-04-11-08006
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

Bay Medical Center (the Hospital) is a 323-bed acute care hospital located in Panama City,
Florida. Medicare paid the Hospital approximately $173.2 million for 16,824 inpatient and
160,149 outpatient claims for services provided to beneficiaries during calendar years (CY) 2009
and 2010 based on CMS’s National Claims History data.

Our audit covered $2,937,881 in Medicare payments to the Hospital for 197 claims that we
judgmentally selected as potentially at risk for billing errors. These 197 claims had dates of
service in CYs 2009 and 2010 and consisted of 182 inpatient and 15 outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 149 of the 197 inpatient and
outpatient claims that we reviewed. However, the Hospital did not fully comply with Medicare



                                                 i
billing requirements for the remaining 48 claims, resulting in overpayments totaling $289,846 for
CYs 2009 and 2010. Specifically, 43 inpatient claims had billing errors, resulting in net
overpayments totaling $271,373, and 5 outpatient claims had billing errors, resulting in net
overpayments totaling $18,473. Overpayments occurred primarily because the Hospital did not
have adequate controls to prevent incorrect billing of Medicare claims, and its staff did not fully
understand Medicare billing requirements.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $289,846,

   •   strengthen controls to ensure full compliance with Medicare requirements, and

   •   provide training to its staff members to improve understanding of Medicare billing
       requirements.

BAY MEDICAL CENTER COMMENTS

In written comments on our draft report, Bay Medical Center concurred with our
recommendations. Bay Medical Center stated that it had corrected all amounts identified as
errors in the report and had submitted amended claims to its fiscal intermediary in accordance
with CMS guidelines. Bay Medical Center further stated that it had strengthened its controls and
provided additional training to accounts payable department staff, coders, and case management
personnel. Bay Medical Center’s comments are included in their entirety as the Appendix.




                                                ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ..........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Bay Medical Center .......................................................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Incorrectly Billed Discharges With Subsequent Readmissions .....................................5
          Incorrect Diagnosis-Related Groups ..............................................................................6
          Missing or Unauthenticated Admission Orders .............................................................6
          Incorrect Reporting of Medical Device Credits .............................................................6
          Incorrect Billing for Costs of Furnishing Blood Clotting Factor Drugs ........................7

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................7
          Incorrect Healthcare Common Procedure Coding System Codes .................................7
          Incorrect Reporting of Medical Device Credits .............................................................7

      RECOMMENDATIONS ......................................................................................................8

      BAY MEDICAL CENTER COMMENTS ...........................................................................8

APPENDIX

      BAY MEDICAL CENTER COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay. For beneficiary stays involving extraordinarily high costs,
section 1886(d)(5)(A) of the Act provides for additional payments (called outlier payments) to
Medicare-participating hospitals.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 2 The OPPS is effective for services furnished on or after August
1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-service
basis that varies according to the assigned ambulatory payment classification (APC). CMS uses
Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to identify and




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.

2
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.


                                                         1
group the services within each APC group. 3 All services and items within an APC group are
comparable clinically and require comparable resources.

Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments identified included payments for claims billed for:

    •   inpatient transfers,

    •   inpatient claims for blood clotting factor drugs,

    •   inpatient claims with same day discharge and readmission,

    •   inpatient claims for short stays,

    •   inpatient claims billed with high-severity level DRG codes,

    •   inpatient claims paid in excess of charges, and

    •   inpatient and outpatient claims involving manufacturer credits for replaced medical
        devices.

For purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member. In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of
payment.




3
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                        2
The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Bay Medical Center

Bay Medical Center (the Hospital) is a 323-bed acute care hospital located in Panama City,
Florida. According to CMS’s National Claims History data, Medicare paid the Hospital
approximately $173.2 million for 16,824 inpatient and 160,149 outpatient claims for services
provided to beneficiaries during calendar years (CY) 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $2,937,881 in Medicare payments to the Hospital for 197 claims that we
judgmentally selected as potentially at risk for billing errors. These 197 claims had dates of
service in CYs 2009 and 2010 and consisted of 182 inpatient and 15 outpatient claims.

We focused our review on the risk areas identified during, and as a result of, prior OIG reviews
at other hospitals. We evaluated compliance with selected billing requirements but did not use
medical review to determine whether the services were medically necessary. We limited our
review of the Hospital’s internal controls to those applicable to the inpatient and outpatient areas
of review because our objective did not require an understanding of all internal controls over the
submission and processing of claims. We established reasonable assurance of the authenticity
and accuracy of the data obtained from the National Claims History file, but we did not assess
the completeness of the file.

This report focuses on select risk areas and does not represent an overall assessment of all claims
submitted by the Hospital for Medicare reimbursement.

We performed fieldwork at the Hospital from June through November 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;




                                                 3
   •   extracted the Hospital’s inpatient and outpatient paid claims data from CMS’s National
       Claims History file for CYs 2009 and 2010;

   •   obtained information on known credits for replaced cardiac medical devices from the
       device manufacturers for CYs 2009 and 2010;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 197 claims (182 inpatient and 15 outpatient) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustment; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 149 of the 197 inpatient and
outpatient claims that we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 48 claims, resulting in overpayments totaling $289,846 for
CYs 2009 and 2010. Specifically, 43 inpatient claims had billing errors, resulting in net
overpayments totaling $271,373, and 5 outpatient claims had billing errors, resulting in net
overpayments totaling $18,473.


                                                4
Overpayments occurred primarily because the Hospital did not have adequate controls to prevent
incorrect billing of Medicare claims, and its staff did not fully understand Medicare billing
requirements.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 43 of the 182 sampled inpatient claims that we
reviewed. These errors resulted in overpayments totaling $271,373.

Incorrectly Billed Discharges With Subsequent Readmissions

The Manual, chapter 3, section 40.2.5, states:

       When a patient is discharged/transferred from an acute care Prospective Payment
       System (PPS) hospital and is readmitted to the same acute care PPS hospital on
       the same day for symptoms related to, or for evaluation and management of, the
       prior stay’s medical condition, hospitals shall adjust the original claim generated
       by the original stay by combining the original and subsequent stay on a single
       claim.

For 17 of 182 sampled inpatient claims, the Hospital billed Medicare separately for related
discharges and readmissions within the same day. For example, a patient was treated to declot a
fistula then discharged to receive dialysis. Upon treatment for dialysis, the fistula reclotted and
the patient was readmitted for declotting. In all 17 sampled claims, the original claim and the
claim involving subsequent readmission were related to the same medical condition(s) and
should have been billed as a continuous stay. However, the Hospital did not adjust the original
claim by combining the original and subsequent admissions onto a single claim, as the Manual
requires.

The Hospital stated that these errors occurred for the following reasons:

   •   For eight claims, the Hospital moved the patients to another location within the hospital
       for a different type of care but billed the relocations as transfers and readmissions due to
       a billing system problem.

   •   For six claims, the Hospital’s physician advisor had concluded that the admissions should
       have been combined. The information was put into the computerized system, but there
       was no notation in the billing system notifying the Hospital’s Billing Department
       staff that a prior determination was made by the physician advisor to combine the
       admissions.

   •   For three claims, human error resulted in the Hospital’s physician advisor not being
       notified for a determination regarding the readmission.

As a result, the Hospital received overpayments totaling $103,711.



                                                 5
Incorrect Diagnosis-Related Groups

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that are not reasonable and necessary for the diagnosis or treatment of illness or injury to
improve the functioning of a malformed body member. The Manual, chapter 1, section 80.3.2.2,
requires providers to complete claims accurately so that Medicare contractors may process them
correctly and promptly.

For 14 of 182 sampled inpatient claims, the Hospital submitted claims to Medicare with incorrect
DRG codes. The Hospital stated that these incorrect claims occurred because of coding errors,
such as selecting incorrect procedure or diagnosis codes that were not supported by the medical
records and improperly interpreting guidance for selecting a principal diagnosis. Additionally,
some of these claims were coded based on the Coding Clinic 4 in effect at the time service was
rendered. A revised Coding Clinic was issued that changed the way to code a service. Although
it is the Hospital’s practice to retroactively rebill claims that were rendered incorrect by a
retroactive change in the Coding Clinic, a few claim corrections were missed. As a result, the
Hospital was underpaid a total of $12,504 (2 claims) and received overpayments totaling
$75,026 (12 claims).

Missing or Unauthenticated Admission Orders

Section 1814(a)(3) of the Act states that payment for services furnished to an individual may be
made only to providers of services that are eligible and only if, “with respect to inpatient hospital
services ... which are furnished over a period of time, a physician certifies that such services are
required to be given on an inpatient basis for such individual’s medical treatment ….”

For 10 of 182 sampled inpatient claims, the Hospital incorrectly billed Medicare Part A for
inpatient claims that did not have a valid physician’s order to admit the beneficiary to inpatient
care. The Hospital stated that these errors occurred because key controls broke down due to
inadequate followup by the staff or due to physicians failing to include a signed admission order
in the medical records. As a result, the Hospital received overpayments totaling $104,571.

Incorrect Reporting of Medical Device Credits

Federal regulations (42 CFR § 412.89) require reductions in the inpatient prospective payment
for the replacement of an implanted device if (1) the device is replaced without cost to the
provider, (2) the provider receives full credit for the cost of a device, or (3) the provider receives
a credit equal to 50 percent or more of the cost of the device.

The Manual, chapter 3, section 100.8, states that to bill correctly for a replacement device that
was provided with a credit, the hospital must code its Medicare claims with a combination of
condition codes 49 or 50 along with value code “FD.”



4
 The American Hospital Association’s Coding Clinic is a quarterly publication that provides answers and
clarifications for all kinds of ICD-9-CM coding questions.

                                                        6
For 1 of 182 sampled inpatient claims, the Hospital received a reportable medical device credit
for a replaced right ventricle lead from a manufacturer. However, the Hospital did not adjust its
inpatient claim with the proper condition and value codes to reduce payment as required. The
Hospital stated that this error was caused by human error, staff turnover, and the education
process. As a result, the Hospital received an overpayment totaling $5,800.

Incorrect Billing for Costs of Furnishing Blood Clotting Factor Drugs

The Manual, chapter 1, section 80.3.2.2, requires providers to complete claims accurately so that
Medicare contractors may process them correctly and promptly. Chapter 3, section 20.7.3.A,
states that hospitals receive an add-on payment for the costs of furnishing blood clotting factors
to certain Medicare beneficiaries and that the provider must use revenue code 636 so that the
clotting factor charges are not included in the cost outlier computations.

For 1 of 182 sampled inpatient claims, the Hospital submitted a claim to Medicare with incorrect
revenue code 250 instead of revenue code 636, which caused the clotting factor charges to be
included in the cost outlier computations. The difference between the cost outlier and the add-on
payment computations resulted in an underpayment. The Hospital stated that this error occurred
because both its software program and the internal spreadsheet did not include specific details for
calculating the additional payment when blood clotting factor drugs are administered to
Hemophilia patients. As a result, the Hospital received an underpayment totaling $5,231.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 5 of 15 sampled outpatient claims, resulting in
overpayments totaling $18,473.

Incorrect Healthcare Common Procedure Coding System Codes

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. Additionally, the Manual,
chapter 1, section 80.3.2.2, requires providers to complete claims accurately so that Medicare
contractors may process them correctly and promptly.

For 4 of 15 sampled outpatient claims, the Hospital billed Medicare with incorrect HCPCS
codes. The Hospital stated that these coding errors occurred because the coders did not realize
the procedures charged did not meet the criteria for coding, and the description of the service in
the medical record was not clear. As a result, the Hospital received overpayments totaling
$1,557.

Incorrect Reporting of Medical Device Credits

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if: (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the



                                                   7
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual explain how a
provider should report no-cost and reduced-cost devices under the OPPS. For services furnished
on or after January 1, 2007, CMS requires the provider to report the “FB” modifier and reduce
charges on a claim that includes a procedure code for the insertion of a replacement device if the
provider incurs no cost or receives full credit for the replaced device.

For 1 of 15 sampled outpatient claims, the Hospital received a full credit for a replaced device
but did not report the “FB” modifier or reduce charges on its claim. The Hospital stated that this
error occurred due to human error, staff turnover, and the education process. As a result, the
Hospital received an overpayment totaling $16,916.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $289,846,

   •   strengthen controls to ensure full compliance with Medicare requirements, and

   •   provide training to its staff members to improve understanding of Medicare billing
       requirements.

BAY MEDICAL CENTER COMMENTS

In written comments on our draft report, Bay Medical Center concurred with our
recommendations. Bay Medical Center stated that it had corrected all amounts identified as
errors in the report and had submitted amended claims to its fiscal intermediary in accordance
with CMS guidelines. Bay Medical Center further stated that it had strengthened its controls and
provided additional training to accounts payable department staff, coders, and case management
personnel. Bay Medical Center’s comments are included in their entirety as the Appendix.




                                                 8
APPENDIX
                 APPENDIX: BAY MEDICAL CENTER COMMENTS
	
                                                                                       Page 1 of 2




                     BAY MEDICAL CENTER
February 22,2012


Lori S. Pilcher
Regional Inspector General for Audit
Services
Office of the Inspector General
Office of Audit Services, Region IV
61 Forsyth Street SW Suite 3T41
Atlanta, GA 30303



Re:Report No. A-04-11-08006

Dear Ms. Pilcher:

        On behalf of Bay Medical Center ("Bay") and Steven M. Johnson, Chief Executive
Officer of Bay, please accept these comments to the Department of Health & Human Services
("DHHS"), Office of Inspector General ("OIG") draft report entitled Medicare Compliance
Review of Bay Medical Center for Calendar Years 2009-2010.

        Bay constantly strives to eliminate billing errors. While Bay would have preferred that
no errors were identified, we note that our error rate is extremely low for these types of claims
that otherwise have been universally identified by DHHS/OIG as suspected of having high error
rates.

        We concur with the three report recommendations and note the following with regard to
those recommendations:

        1.      We agree that Bay was overpaid as stated in the Report by $289,846. During our
self-audit, however we identified $130,061.27 of this amount prior to OIG's review. All of the
amounts identified as errors in the report have been corrected and amended claims have been
submitted to our fiscal intermediary, First Coast Services Options ("FCSO") in accordance with
CMS guidelines. It is our understanding that this process will be completed as soon as the final
report to this examination is issued by the OIG and transmitted to FCSO.

        2.     With regard to the recommendation to strengthen controls, Bay devotes a
significant amount of resources to maintain accurate and effective controls. We are constantly
making improvements to our documentation and billing processes and related controls. We will
continue to do so. The following corrective actions have been taken to strengthen controls:


                61 S North Bonita Avenue, Panama City. Florida 32401 ..
                     ACCREDITED BY THE IOINT COMMISSION OF HEAL THCARE ORGANIZATIONS
DM213224833.!
      MEMBER OF THE AMERICAN HOSPITAL ASSOCIATION .. MEMBER OF THE VOLUNTARY HOSPITALS OF AMERICA
                                                                                       Page 2 of 2



February 22,2012
Page 2

               As a result of the audit, Bay has strengthened its internal processes
               surrounding explanted medical devises, requiring the collaboration
               of clinical, billing and procurement departments. Additionally, we
               have reviewed and revised our PriceWaterhouseCoopers SMART
               software edits so as to flag charts that contain the erroneously
               coded DROs & HCPC codes identified in the audit. With regard to
               same day re-admissions, we have developed new protocols so that
               there is better communication between our physician advisor and
               our billing department.

        3.      With regard to the recommendation to provide training to staff members, Bay
continuously provides education and training to our staff involved in the coding and billing
processes. We also provide automated tools and reference resources in order to maintain current
knowledge of the ever changing and complex Medicare coding and billing requirements. We
will continue to do so. The following corrective actions have been taken subsequent to the
period covered by the 010 audit:

               We have provided additional education to our accounts payable
               department staff regarding warranty credits for explanted devices.
               Similarly, we have provided additional education to our coders
               regarding the DROs & HCPC codes that were identified in the
               audit. Additionally, case management personnel have been given
               additional education regarding inpatient admission criteria, as well
               as the proper documentation of patient discharge status. Lastly, we
               have developed a procedure to identify and manually review
               claims that include blood clotting factors.

      It has always been and will continue to be our intent to file accurate, complete, and timely
Medicare claims with the objective of having no errors or need for adjustments.

        Thank you for assisting us by identifying areas for our continuous improvement activities
and for the opportunity to provide this commentary.

                                                     Sincerely,



                                                     s~
cc: Mike West, Corporate Compliance Officer, Bay Medical Center
